 Review of Charges for Unemployment
       Compensation Insurance

                           New Orleans Public Schools



                                 FINAL AUDIT REPORT
                                     Audit Control Number 06-60010
                                               January 98




                                U.S. DEPARTMENT OF EDUCATION
                                 OFFICE OF INSPECTOR GENERAL
                                            Dallas, TX




NOTICE
Statements that management practices need improvement, as well as other conclusions and recommendations in
this report, represent the opinions of the Office of Inspector General. Determinations of corrective action to be
taken will be made by appropriate Department of Education officials. This report may be released to members of
the press and general public under the Freedom of Information Act.
                UNITED STATES DEPARTMENT OF EDUCATION
                                   OFFICE OF INSPECTOR GENERAL
                            1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630
                                       DALLAS, TEXAS 75201-6817
                                 PHONE: (214) 880-3031 FAX: (214) 880-2492


January 28, 1998                                                                  Audit Control No.06-60010

Cecil J. Picard
Superintendent of Education
Louisiana Department of Education
P.O. Box 94064
Baton Rouge, LA 70804-9064

Dear Mr. Picard:

This is our audit report, Review of Charges for Unemployment Compensation Insurance, New
Orleans Public Schools. The report incorporates the comments you provided in response to a
draft report which was provided to you. If you have any additional comments or information that
you believe may have a bearing on the resolution of this audit, you should send then directly to the
following U.S. Department of Education official, who will consider them before taking final
Departmental action on the audit:

                Gerald N. Tirozzi, Assistant Secretary
                Office of Elementary and Secondary Education
                U.S. Department of Education
                Portals Building, Room 4000
                1250 Maryland Avenue, SW
                Washington, DC 20202-6100

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, please send your comments within 30 days.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press
and general public to the extent information contained therein is not subject to exemption in the
Act. Please refer to the above audit control number in all correspondence relating to this report.
                                              Sincerely,



                                                    Daniel J. Thaens
                                                    Western Area Manager
                                                    Dallas, Texas

copy: Marlyn Langley, Deputy Superintendent, Louisiana Department of Education
      Dr. Morris L. Holmes, Superintendent, New Orleans Public Schools



     OUR MISSION IS TO ENSURE EQUAL ACCESS TO EDUCATION AND PROMOTE EDUCATION EXCELLENCE THROUGHOUT THE NATION
                             TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

AUDITEE COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Louisiana State Department of Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
          New Orleans Public Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

OIG RESPONSE TO COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

STATEMENT ON INTERNAL CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

QUALIFICATION OF AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

APPENDIX I

ATTACHMENT I

ATTACHMENT II
Audit Control Number 06-60010                                                                              Page 1




    Review of Charges for Unemployment
          Compensation Insurance

                             Executive Summary
The New Orleans Public Schools (NOPS) charged $2,265,212 in unreasonable unemployment
compensation insurance costs to U.S. Department of Education (ED) programs for State Fiscal
Years (FY) 1992 through 19961. NOPS did not use a reasonable methodology for charging ED
programs. Although personnel associated with ED programs accounted for only 8.4 percent of
NOPS payroll costs, the ED programs were charged 48 percent of the total unemployment
compensation insurance costs. Federal Regulations allow grantees to charge Federal programs
only to the extent that the costs are reasonable and are allocated in accordance with the benefits
received as a result of the costs. In the absence of extenuating circumstances, a reasonable basis
for allocating unemployment compensation insurance costs to ED programs would have been to
allocate based on the percentage of premium costs that represented the percentage of payroll for
ED programs as related to the total NOPS payroll.

The Louisiana Department of Education provided ED funds to NOPS. NOPS charged an
unreasonable proportion of unemployment insurance costs to various ED programs. We
recommend that the Secretary require the Louisiana Department of Education to: (1) refund
$2,265,212 to ED; (2) ensure that only a reasonable proportion of unemployment insurance costs
are charged for periods after Fiscal Year 1996.

NOPS officials provided a management representation letter which did not contain all of the
requested representations. The following representation was totally omitted:

       “We are responsible for the fair representation of documents, records, and other
       information provided for your review.”

Because of the significance of the deficiencies discussed in this report, and because of the
inadequacy of the management representation letter submitted by NOPS officials, we cannot
provide assurance that there is not further noncompliance with laws and regulations. (See
Qualification of Audit Results on page 11.)

       1
        The fiscal year discussed in this report pertains to an annual period beginning on July 1 and ending on
       June 30 of the following year. For example, FY 1992 began on July 1, 1991.
Audit Control Number 06-60010                                                                Page 2




                                AUDIT RESULTS


The total cost of unemployment compensation insurance for NOPS was $5,707,526 based on paid
invoices for Fiscal Years 1992 to 1996. NOPS charged ED programs $2,747,043 or 48 percent
of the total using a method which did not result in a reasonable allocation of ED’s share of the
costs. A total of $481,831 or 8.4 percent of the total would have been a reasonable charge to ED
programs based on the ratio of total salaries for NOPS personnel working on Federal programs to
total NOPS salaries.

NOPS used the services of Unemployment Compensation Control Systems, Inc. (UCCS) for
unemployment compensation insurance. UCCS bills NOPS for unemployment compensation
insurance services based on payroll data provided by NOPS. UCCS calculates its charges by
multiplying various rates times payroll dollar amounts for the three categories of fund accounts
used by NOPS. As shown in the following table, the Special Revenue Fund, which contains
Federal funds, is assessed a rate that is about 22 times higher than that of the General Fund.



      Billing Rates for 07/01/84-12/31/94              Billing Rates for 01/01/95-06/30/96
         Fund                     Rate                     Fund                     Rate
    Special Revenue               3.30%              Special Revenue               2.10%
     Food Service                 2.00%                Food Service                1.30%
        General                   0.15%                   General                  0.10%


The UCCS contract which took effect on July 1, 1984 did not provide for a single unemployment
premium rate; rather, it provided for the three different rates shown above. Those rates were
applied to total payroll dollars for the respective funds.

The 1995 contract provided for a single rate of 0.335 percent of payroll dollars. The use of the
0.335 percent applied to all salary dollars was expected to total the amount of the total premium
charged by UCCS. For the first year of the contract, UCCS billed NOPS on the single-rate basis,
using the 0.335 percentage rate. However, NOPS then requested that UCCS provide revised
invoices for the quarters in which UCCS had billed the school district with the single rate. UCCS
complied with that request, and sent four revised invoices. Those invoices broke the premium
cost down into three distinct rate groups, with the cost to the Special Revenue Fund increasing
Audit Control Number 06-60010                                                                    Page 3



and the cost to the General Fund decreasing, although the overall premium changed very little. In
fact, the revised invoices contained the words “NO PAYMENT DUE”. The revised rates which
took effect in 1995 were in about the same ratio as the rates which were used during the period
July 1, 1984 through December 31, 1994.

We visited UCCS to determine what documentation was available to support the high rate for the
Special Revenue Fund (which includes primarily ED grant funds). UCCS officials stated that a
3.3 rate used for the Special Revenue Fund was established in 1984 but documentation was not
currently available to support the rate. Further, UCCS officials stated that their current data base
did not show the funds from which employees were being paid when they were terminated.
Officials did point out that the contract negotiated for 1995 included a reduction in the rate used
for the Special Revenue fund. Again, officials did not have information showing that the
reduction was based on actual claims by individuals assigned to the Special Revenue Fund prior to
unemployment. In fact, all of the rates decreased because the total costs of the unemployment
insurance decreased.

NOPS maintains that Federal programs deserve to bear a higher cost than others for the following
two related reasons:

       1.      Federal funds are not dependable since grants often last for only one year,
               with no guarantee of renewal.

       2.      General Fund employee layoffs are caused by Federally-funded employees
               who generally have more tenure and bump when layoffs are necessary.

Our review disclosed that the total Federal funds awarded to NOPS increased by 9 percent from
FY 1992 to 1996. As a result, although funds for some programs may have fluctuated, Federal
funds available to NOPS were stable. In addition, NOPS did not have documentation to show
that employee bumping rights provided a basis for charging higher rates to Federal programs.

Federal Cost Principles for State, Local and Indian Tribal Governments, OMB Circular A-87
(May 17, 1995), provides regulatory guidance for costs charged to Federal grant awards.
Attachment A, Section C.1 of the Circular states that allowable costs must be necessary and
reasonable. Attachment B, Section 11.d specifically states that the costs of fringe benefits,
including unemployment benefit plans, are allowable to the extent that the benefits are reasonable.
It also states that the costs shall be allocated to Federal awards and all other activities in a manner
consistent with the pattern of benefits attributable to the employees whose salaries and wages are
chargeable to such Federal awards and other activities. Attachment A, Section C.3 states that a
cost is allocable to a particular cost objective in accordance with the relative benefits received.
Circular A-87 (January 15, 1981) included similar language.
Audit Control Number 06-60010                                                                           Page 4



We considered two possible methods that could be used to allocate a reasonable share of
unemployment compensation costs to ED programs. One method would be to allocate the costs
based on the ratio of actual dollars for claims paid to ED- funded employees2 to the total dollars
for claims paid for all employees. Data for this type of allocation was not readily available at the
time of our review. In addition, this type of allocation would depend on an employee’s status as
of the date of termination and would not consider status during the year. The second method that
we considered was to allocate the ED share based on the ratio of salary of ED-funded employees
to total salary for all NOPS employees. This method does consider an employee’s status over a
period of time. We concluded that this was the best method available to assign the unemployment
compensation insurance costs to ED.

During our audit period, ED funds were used to pay 8.4 percent of the total salaries paid by
NOPS. The remaining 91.6 percent of salary cost was funded from other sources. Using 8.4
percent of total salaries as the basis of allocation, ED’s share of unemployment compensation
insurance costs was $481,831 for the audit period. ED was actually charged $2,747,043 which
represents 48 percent of the total costs for unemployment insurance. In our opinion, the method
used by NOPS for billing unemployment insurance premiums resulted in overcharges to ED
totaling $2,265,212.

For the 12-month period ending June 1995, the NOPS Internal Audit Department analyzed actual
claim payments associated with employees of the three different funds. The analysis showed that
91 percent of the total payments pertained to employees paid from the General Fund, whereas
only 6 percent pertained to employees paid from the Special Revenue Fund, which includes ED
programs. The remaining 3 percent applied to employees paid from the Food Service Fund.
Although this data was not verified by an independent source, it does indicate that use of actual
claim data to allocate unemployment insurance costs would not be materially different than the
use of salary ratios.




2
The funding status (ED or non-ED) of an employee would need to be determined as of the date of termination.
Audit Control Number 06-60010                                                               Page 5



We calculated the excess charges to ED by subtracting the reasonable amount that should have
been charged from the amount actually charged. The calculations are presented on an annual
basis in the following table. Appendix I (pages 1 through 5) details the excess charges to the
various Education programs for each of the five fiscal years covered by this audit.


                    Charges to ED for Unemployment Insurance
                                 Amount                                          Excess
                                That Was                                        Amount
                                Actually              Reasonable                Charged
      Fiscal Year               Charged                Charges                   to ED
          1992                  $ 579,285               $ 99,234                $ 480,051
          1993                  $ 656,590               $111,446                $545,144
          1994                  $ 646,293               $120,118                $526,175
          1995                  $ 495,606               $ 83,720                $411,886
          1996                  $ 369,269               $ 67,313                $301,956
         Total                  $2,747,043              $481,831               $2,265,212

As shown, our calculations disclosed that excess unemployment compensation costs of
$2,265,212 were charged to ED. Further, when we completed our review in March 1997, NOPS
was continuing to use the method described in this report to charge costs for unemployment
compensation insurance.




                            RECOMMENDATION


We recommend that the Secretary require the Louisiana Department of Education to: (1) refund
$2,265,212 to ED; and (2) ensure that only a reasonable proportion of unemployment insurance
costs are charged for periods after Fiscal Year 1996.

                                 AUDITEE COMMENTS

We received comments from the Louisiana State Department of Education (LSDE) and New
Orleans Public Schools (NOPS). Both of these entities disagreed with our finding and
recommended actions.
Audit Control Number 06-60010                                                                Page 6



Comments from the Louisiana State Department of Education

LSDE commented that if historical data indicated a higher incidence of unemployment for
individuals funded under Federal programs, then it would be reasonable that those Federally-
funded programs have higher premium cost. LSDE also stated that UCCS provided documents
to KPMG Peat Marwick (Peat Marwick) indicating that the premiums charged to Federal
programs were based on historical experience. LSDE questioned whether the OIG had
considered UCCS records and the work performed by Peat Marwick. LSDE’s complete
comments are included as Attachment I to this report.

Comments from New Orleans Public Schools

NOPS pointed out that the OIG position concerning the recommended refund was based on
reasonableness. Reasonableness involved the use of a salary ratio to allocate unemployment
insurance cost as opposed to the variable rate methodology used by UCCS. NOPS stated that
OMB circular A-87 neither defined “reasonableness” nor restricted cost allocation methods to
only one reasonable method. The majority of the response was geared toward documenting the
reasonableness of the varying interest rates used for billing unemployment insurance premiums.
Risk, uncertain future Federal funding sources, and General Fund stability were three reasons
given to justify the tiered rates used by NOPS.

NOPS commented that two studies have been performed which related claims paid to the funding
sources of individuals at the time of termination. One study included four quarters of data ending
June 30, 1995. The other included six quarters of data ending June 30, 1997. The first study was
within our audit period whereas the second study included only two quarters of data that was
within our audit period.

In the first study, which covered four quarters of data in our audit period, NOPS concluded that
based on “Pure Premiums”, the Special Revenue Fund (which includes Federal funds) had a ratio
of claims paid to payroll which was seven times greater than that of the General Fund. Based on
the theory of “Benefit Relativity”, the ratio was also seven times greater for the Special Revenue
Fund. Considering the theory of “Claims Relativity”, the ratio was eleven times greater for the
Special Revenue Fund. Results were similar for the six-quarter study. (Note: NOPS data
excluded claims for day-by-day employees which accounted for about 45 percent of the claims
paid. These claims are all paid with General funds.)

Bumping was also mentioned as a reason for some General Fund employee layoffs which resulted
in unemployment claims. Bumping was explained as the process of one employee replacing
another employee based on seniority. In some instances, a senior employee is funded through a
Federal program. If the Federally-funded position is terminated, it results in the bumping of a
General Fund employee with less seniority.
Audit Control Number 06-60010                                                               Page 7



Regarding Federal fund stability, NOPS pointed out that while Federal funds may have increased,
the draft report failed to mention that some Federal programs had significant fluctuations which
prompted terminations and subsequent unemployment claims.

NOPS also pointed out that the 3.30 rate used to allocate unemployment costs to the Special
Revenue fund was less than the overall percentage charged by the state of Louisiana.

NOPS also engaged the consulting firm of Milliman and Robertson, Inc. (M & R) to address
concerns regarding the reasonableness of charging tiered rates for unemployment insurance costs.
The M&R report, which concluded that tiered rates were appropriate, is included as part of the
NOPS response. Page three of the consultant report included a comparison of payroll, actual
benefits paid, and pure premiums for Federally-funded and non-Federally funded programs. That
comparison showed that the pure premium was nearly seven times greater for Federal programs
than for non-Federal programs.

Although NOPS officials did not concur with our finding or recommendation, their response
expressed a willingness to discuss areas of disagreement with ED.


                           OIG RESPONSE TO COMMENTS

Louisiana State Department of Education

We agree with LSDE’s comment that Federal programs should bear a higher premium cost if
historical data indicates a higher incidence of unemployment for individuals funded under Federal
programs. However, historical data does not support that premise.

LSDE also commented that UCCS provided documents to Peat Marwick indicating that
premiums charged to Federal programs were based on historical experience. We visited UCCS
on two occasions and were told that the rates used until January 1995 were established in 1982
and were based on historical data. However, neither UCCS nor NOPS could provide that
historical data. Further, we were told that UCCS could not analyze any claim data by type of
program because UCCS did not have information showing the funding source of a claimant prior
to claim submission. According to UCCS, only NOPS could determine the funding source of an
individual prior to that individual making an unemployment claim.

New Orleans Public Schools

The NOPS response attempted to show why a tiered rate structure was an acceptable method of
charging unemployment insurance cost. The response also indicated that, based on different
scenarios, Federal programs should be charged more than programs paid with General funds.
The response, however, never identified amounts that should have been charged to ED. Also, the
NOPS analysis of claim payments excluded temporary day-by-day workers (paid from the General
Fund) which account for about 45 percent of claim payments.
Audit Control Number 06-60010                                                                  Page 8



Regardless of the type of rate used, a tiered rate or an across-the-board rate, the rate used to
allocate costs to ED and other Federal programs should reasonably reflect the actual costs and
benefits received by the various Federal programs. We found that NOPS had used the same
tiered rate structure since 1982 to allocate unemployment insurance premiums. Although the rate
applied to Federal programs was about 22 times greater than the rate applied to General Fund
programs, NOPS had no documentation to support the rates used.

We revisited NOPS and UCCS during December 1997 and reviewed actual claim data pertaining
to information included in the NOPS response to the draft report. UCCS had isolated all claim
payments, and NOPS had determined the funding sources of individuals receiving unemployment
insurance claim payments.

For the 18-month period ending June 30, 1996, claim payments totaled $216,962. Of those
payments, we verified that only $33,970 or 15.7 percent was related to individuals employed
under Federal programs prior to making unemployment claims. Based on our audit work, we
concluded that about 9.7 percent of the claims identified by UCCS pertained to ED programs.
This rate is similar to the salary rate of 8.4 percent which we used in our audit calculations. Since
data was provided and verified for only 18 months instead of the 60 months of the audit period,
and since data for the other months could cause the 9.7 percent figure to change, we still maintain
that the 8.4 percent salary ratio rate is a reasonable rate to use in this audit.

After analyzing the NOPS response and reviewing claim data, our finding and recommendation
remain essentially the same. At the time of our review, NOPS was not analyzing historical claim
data to determine if actual claims were in line with charges for premiums. If NOPS plans to
accumulate and analyze claim data in the future, then premiums for unemployment insurance
could be charged to ED on the basis of the actual claim rate. Until such time that historical data is
available, we believe that allocating unemployment insurance premiums to ED should be based on
the percentage-of-salaries method. A complete text of each response is included with this report
as Attachments I and II.
Audit Control Number 06-60010                                                              Page 9




                                OTHER MATTERS


Our review disclosed that NOPS did not bill its General Fund in FY 1994 for its share of the
Worker’s Compensation Self-Insurance Fund. This problem was also documented by Peat
Marwick and Bruno & Tervalon in a special report issued on November 7, 1995. Peat Marwick
concluded that the appropriate costs should be charged to the General Fund, and stated that the
charge could be amortized over a period of up to five years. Additionally, former internal
auditors provided information indicating that some of the charges to the Worker’s Compensation
Fund were inappropriate.

Except for NOPS not contributing to the fund in FY 1994, which was addressed in Peat
Marwick’s report, we did not pursue this area any further. While there may be problems with this
fund, the percentage of charges to Education programs is minimal and any recovery would not be
commensurate with effort. For our five-year audit period, $16.4 million was allocated to various
funds for worker’s compensation coverage. Only 2.6 percent (or $430,000) was allocated to ED
programs.

In our opinion, NOPS, in coordination with the Louisiana Department of Education, should
follow Peat Marwick’s recommendation. NOPS should also implement controls to ensure that all
future charges are allocated properly. Regarding inappropriate charges to the fund, the Louisiana
Department of Education may want to examine this area, as the majority of funds affected are
State and Local funds.




            AUDIT SCOPE AND METHODOLOGY

The primary objective of our audit was (1) to determine whether NOPS appropriately allocated
unemployment compensation insurance premium costs to ED programs and (2) to quantify any
overcharges applicable to inappropriate allocations. A secondary objective was to determine if
there were other significant costs that were being inappropriately allocated to ED programs.

In order to accomplish our objective, we reviewed prior audit reports prepared by Peat Marwick,
interviewed appropriate officials of NOPS and UCCS, and obtained relevant documents. We
also gained an understanding of how NOPS accounts for its insurance costs, including the
allocation of those costs to different accounting funds and grant programs. Focusing on the ED
Audit Control Number 06-60010                                                              Page 10



funds that flowed through the Louisiana Department of Education to NOPS, we determined the
amount of unemployment costs that could reasonably be charged to ED programs, and then
compared our calculation with the allocated charges. We also determined the percentage of
worker’s compensation costs that were charged to ED programs.

The audit period was July 1, 1991 through June 30, 1996 (Fiscal Years 1992 through 1996).
Field work was performed periodically from July 1996 to March 1997. The audit was conducted
in accordance with generally accepted government auditing standards appropriate to the scope of
the audit described above except that NOPS officials provided a management representation letter
which we considered to be inadequate. We considered the letter to be inadequate because
management did not state its responsibility for the fair representation of documents, records, and
other information provided for our review. (See Qualification of Audit Results section.)




                                 BACKGROUND


NOPS is located in New Orleans, Louisiana, and is the largest school district in the state of
Louisiana. The student enrollment is about 85,000. The District has over 9,000 employees, and
operates with an annual budget of about $400 million. About 16 percent of the total budget
comes from Federal funds, with about 10 percent of the budget coming from the United States
Department of Education.

On September 1, 1995, the NOPS Internal Audit Department issued a report of Risk Management
activities. The report maintained that NOPS was overcharging Federal programs for
unemployment and worker’s compensation insurances. On September 26, 1995, the NOPS
management issued a response to the Risk Management report, disagreeing with all findings
contained in the report. On October 10, 1995, the Internal Audit Department issued additional
comments, stating that the audit report was accurate.

Since there was a disagreement between NOPS management and the Internal Audit Department,
the NOPS attorney retained the accounting firms Peat Marwick and Bruno & Tervalon to do
some special work. The work of the two firms was a joint effort, and one report was produced.
The report, dated November 7, 1995, stated that charges to the Federal programs for
unemployment compensation insurance and worker’s compensation insurance were in compliance
with OMB Circular A-87. The OIG disagreed that costs charged for unemployment
compensation insurance were in compliance with OMB Circular A-87.
Audit Control Number 06-60010                                                               Page 11




        STATEMENT ON INTERNAL CONTROLS


As part of our review, we assessed the system of internal controls, policies, procedures, and
practices applicable to accounting for and charging unemployment compensation insurance and
worker’s compensation insurance costs. Our assessment was performed to determine the level of
control risk for determining the nature, extent, and timing of our substantive tests to accomplish
the audit objectives. For the purpose of this report, we limited our review to gaining an
understanding of the significant management controls over accounting for and charging the
insurance costs to different funding sources. We identified the following management controls:

--     accounts established to accumulate insurance costs

--     methods used for billing costs to various funding sources

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in internal controls. However, our
assessment identified weaknesses in the methods used to allocate costs to various funding
sources. The weaknesses are discussed in detail in the Audit Results section of this report.




           QUALIFICATION OF AUDIT RESULTS


As discussed in the Executive Summary and Audit Scope and Methodology sections, NOPS
representatives provided a management representation letter which we considered to be
inadequate. Generally accepted auditing standards require us to request a management
representation letter from the officials of an entity we audit. The letter acknowledges
management’s responsibility for the fair presentation of records and reports, and asserts that the
auditors have been provided all requested records. It also states that, to the best of management’s
knowledge, there have been no irregularities or violations of laws or regulations in connection
with the scope of the audit.
Audit Control Number 06-60010                                                               Page 12



A management representation letter was discussed with NOPS officials in July 1997 and on
several other occasions, but NOPS did not provide a representation letter until January 23, 1998.
However, the letter was dated December 4, 1997 because we had made a return visit to NOPS at
that time to verify information that was submitted in the NOPS response to our draft report.
NOPS viewed that date as our last day of field work. The NOPS letter provided three of our four
requested written representations. However, management did not state its responsibility for the
fair representation of documents, records, and other information provided for our review. We
consider the omission of the statement to be serious. Therefore, because of the significance of the
deficiencies discussed in the Audit Results section of this report and the failure of NOPS to
provide an adequate management representation letter, we cannot provide assurance that there is
not further noncompliance with laws and regulations.
                             DISTRIBUTION SCHEDULE
                             Audit Control Number 06-60010


                                                                     Copies


Auditee                                                                 1

Action Official

       Gerald N. Tirozzi, Assistant Secretary
       Office of Elementary and Secondary Education
       Department of Education
       Portals Building, Room 4000
       1250 Maryland Avenue, SW
       Washington, DC 20202-6100                                        1

Other ED Offices

       Judith Heumann, Assistant Secretary
       Office of Special Education and Rehabilitative Services          1

       Patricia W. McNeil, Assistant Secretary
       Office of Vocational and Adult Education                         1

       Charles Miller, Post Audit Group Supervisor
       Office of the Chief Financial and Chief Information Officer      1

       Dolores Warner
       Office of Elementary and Secondary Education                     1

       Barbara Bauman
       Office of Special Education and Rehabilitative Services          1

       Marcel Devall
       Office of Vocational and Adult Education                         1

       Secretary’s Regional Representative, Region VI                   1
Distribution Schedule (continued)


OIG
         Inspector General                                         1
         Deputy Inspector General                                  1
         Assistant Inspector General for Audit                     1
         Assistant Inspector General for Investigation             1
         Assistant Inspector General for Operations Western Area   1
         Chief of State and Local                                  1
         Special Counsel to IG                                     1
         Regional Inspector General for Investigation              1
         RIGA Regions 2, 3, 4, 5, 7, 9                             6
         Dallas                                                    6

Others

         Jamienne S. Studley, General Counsel (A)
         Office of General Counsel
         Department of Education
         600 Independence Ave. SW
         Room 5400
         Washington, DC 20202-2100                                 1

         Gregory Woods
         Department of Justice
         Civil Division
         Commercial Litigation Branch
         PO Box 261, Ben Franklin Station
         Washington, DC 20044                                      1
